AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, BASIC

   SCIENTIFIC RESEARCH TO SUPPORT FORENSIC

  SCIENCE FOR CRIMINAL JUSTICE, COOPERATIVE

  AGREEMENT AWARDED TO THE REGENTS OF THE

       UNIVERSITY OF COLORADO, BOULDER




           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division


          Audit Report GR-60-14-002

                December 2013

  AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, BASIC

 SCIENTIFIC RESEARCH TO SUPPORT FORENSIC SCIENCE 

   FOR CRIMINAL JUSTICE, COOPERATIVE AGREEMENT

   AWARDED TO THE REGENTS OF THE UNIVERSITY OF

                COLORADO, BOULDER


                          EXECUTIVE SUMMARY


      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office of Justice Programs
(OJP), National Institute of Justice (NIJ) Basic Scientific Research to Support
Forensic Science for Criminal Justice Purposes, cooperative agreement
No. 2011-DN-BX-K533 totaling $894,629, awarded to the Regents of the
University of Colorado, Boulder, (CU) as shown in Exhibit 1.

EXHIBIT 1: COOPERATIVE AGREEMENT AWARDED TO CU
                                        PROJECT        PROJECT            AWARD
  AWARD NUMBER         AWARD DATE      START DATE      END DATE           AMOUNT
 2011-DN-BX-K533        08/25/11        01/01/12       12/31/13             894,629
Source: Office of Justice Programs (OJP) Grants Management System (GMS)

      The cooperative agreement was awarded under the OJP, NIJ Basic
Scientific Research to Support Forensic Science for Criminal Justice Purposes
program. The program funds basic scientific research in the physical, life,
and cognitive sciences that is designed to increase the knowledge underlying
forensic science disciplines intended for use in the criminal justice system.
The award made to CU was specifically for the characterization of bacterial
and fungal communities associated with corpse decomposition using next
generation sequencing.

Our Audit Approach

      The purpose of the audit was to determine whether costs claimed
under cooperative agreement No. 2011-DN-BX-K533 were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the agreement. The objective of the audit was
to review performance in the following areas: (1) internal control
environment, (2) drawdowns, (3) award expenditures, (4) budget
management and control, (5) financial status and progress reports,
(6) program performance and accomplishments, (7) property management,
and (8) special cooperative agreement requirements. We determined that
post end-date activities, matching costs, program income, and monitoring of
subgrantees and contractors were not applicable to this performance audit.
      We tested compliance with what we consider to be the most important
conditions of the cooperative agreement. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and cooperative agreement award documents.

       Based on our audit testing, we determined that CU did not comply with
all of the cooperative agreement requirements we tested, resulting in
questioned costs of $29,429. Specifically, we found the following
exceptions:

   •	 2 positions charged to the agreement were not in the approved budget
      resulting in $16,408 in questioned costs.

   •	 8 payroll transactions were not properly supported resulting in

      $13,021 in questioned costs.


   •	 1 of the 3 progress reports filed with OJP was submitted 15 days late.

      We make two recommendations as a result of our audit of the
cooperative agreement. These are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objective, Scope, and
Methodology appear in Appendix I and our Schedule of Dollar-Related
findings are located in Appendix II.




                                      ii
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

  Background.......................................................................................1

  Our Audit Approach............................................................................2

FINDINGS AND RECOMMENDATIONS................................................ 4

 Internal Control Environment ..............................................................4

   Single Audit....................................................................................4

   Financial Management System..........................................................4

 Drawdowns .......................................................................................5

 Agreement Expenditures.....................................................................5

 Budget Management and Control .........................................................7

 Reporting .........................................................................................7

   Financial Reporting..........................................................................7

   Semiannual Progress Reports ...........................................................7

 Award Requirements ..........................................................................8

 Program Performance and Accomplishments .........................................8

   Program Objectives .........................................................................9

   Analysis of Program Performance .................................................... 10

 Conclusion ...................................................................................... 11

 Recommendations ........................................................................... 11

APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY................. 12

APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS ........... 14

APPENDIX III – THE REGENTS OF THE UNIVERSITY OF COLORADO,

BOULDER’S RESPONSE TO THE DRAFT REPORT ............................. 15

APPENDIX IV – OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE 

DRAFT REPORT ............................................................................... 17

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL ANAYSIS AND 

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .......... 20

   AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, BASIC

  SCIENTIFIC RESEARCH TO SUPPORT FORENSIC SCIENCE 

    FOR CRIMINAL JUSTICE, COOPERATIVE AGREEMENT

    AWARDED TO THE REGENTS OF THE UNIVERSITY OF

                 COLORADO, BOULDER


                               INTRODUCTION


      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office of Justice Programs
(OJP), National Institute of Justice (NIJ) Basic Scientific Research to Support
Forensic Science for Criminal Justice Purposes, cooperative agreement No.
2011-DN-BX-K533 totaling $894,629, awarded to the Regents of the
University of Colorado, Boulder, (CU) as shown in Exhibit 1.

EXHIBIT 1: COOPERATIVE AGREEMENT AWARDED TO CU
                                         PROJECT       PROJECT             AWARD
   AWARD NUMBER         AWARD DATE      START DATE     END DATE            AMOUNT
  2011-DN-BX-K533        08/25/11        01/01/12      12/31/13           $894,629
Source: Office of Justice Programs (OJP) Grants Management System (GMS)

Background

      The Office of Justice Programs (OJP), a component of the U.S.
Department of Justice, provides innovative leadership to federal, state, local,
and tribal justice systems by disseminating state-of-the-art knowledge and
practices across America, and providing grants for the implementation of
these crime fighting strategies. OJP works in partnership with the justice
community to identify the most pressing crime-related challenges confronting
the justice system and to provide information, training, coordination, and
innovative strategies and approaches for addressing these challenges.

      The National Institute of Justice (NIJ), the research, development and
evaluation agency of the U.S. Department of Justice, is dedicated to
improving knowledge and understanding of crime and justice issues through
science. NIJ provides objective and independent knowledge and tools to
reduce crime and promote justice, particularly at the state and local levels.

      The Basic Scientific Research to Support Forensic Science for Criminal
Justice Purposes solicitation sought applicants to fund basic scientific
research in the physical, life, and cognitive sciences that was designed to
increase the knowledge underlying forensic science disciplines intended for
use in the criminal justice system. The award made to CU was specifically for
the characterization of bacterial and fungal communities associated with
corpse decomposition using next generation sequencing.

       CU was the first public university to open its doors in Colorado and is
the flagship of the four-campus University of Colorado System. CU offers
78 degree programs at the bachelor’s level, 56 at the master’s level, and
53 at the doctoral level. It has 78 research centers and institutes exploring
the arts and sciences, business, education, engineering, environmental
design, journalism, law, music and other disciplines. CU was awarded more
than $380 million in sponsored research funding in fiscal year (FY) 2012.

Our Audit Approach

      The purpose of the audit was to determine whether costs claimed under
cooperative agreement No. 2011-DN-BX-K533 were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the award. The objective of the audit was to review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) award expenditures, (4) budget management and
control, (5) financial status and progress reports, (6) program performance
and accomplishments, (7) property management, and (8) special cooperative
agreement requirements. We determined that post end-date activities,
matching costs, program income, and monitoring of subgrantees and
contractors were not applicable to this agreement audit.

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreement. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and cooperative agreement award documents. We tested CU's:

   •	 Internal Control Environment - to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard cooperative agreement funds and ensure
      compliance with the terms and conditions of the award.

   •	 Drawdowns - to determine whether drawdowns were adequately
      supported and if CU was expending drawdowns timely.

   •	 Expenditures - to determine the accuracy and allowability of costs
      charged to the award, including accountable property, payroll
      expenditures, fringe benefit expenditures, and indirect costs.




                                       2

  •	 Budget Management and Control – to determine whether there
     were deviations between the amounts budgeted and the actual costs
     for each category.

  •	 Federal Financial Reports (FFRs) and Progress Reports - to
     determine whether the required FFRs and Progress Reports were
     submitted in a timely manner and accurately reflect award activity.

  •	 Program Performance and Accomplishments - to determine
     whether CU has met the award objectives.

  •	 Award Requirements - to determine whether CU complied with
     award guidelines and special conditions.

      We make two recommendations as a result of our audit of the
cooperative agreement. These are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objective, Scope, and
Methodology appear in Appendix I and our Schedule of Dollar-Related
Findings are located in Appendix II.




                                     3

               FINDINGS AND RECOMMENDATIONS

      We determined that CU has documented policies and procedures
      related to procurement and financial and accounting functions.
      Drawdowns were adequately supported and expended timely,
      and Financial Reports were accurate and submitted timely.
      Specific to progress reports, we did not find anything that would
      indicate CU was not reporting actual accomplishments, in-line
      with the program goals and objectives. We did find, one of the
      three submitted progress reports was submitted 15 days late. In
      addition, 2 positions, charged to the award were not in the
      approved budget and 8 payroll transactions were not properly
      supported. As a result, we questioned $29,429 in questioned
      costs.

Internal Control Environment

      We reviewed CU’s internal control environment, including procurement,
receiving, payment, and payroll procedures to determine compliance with the
terms and conditions of the cooperative agreement award and to assess risk.
We also interviewed management and key personnel, and inspected
documents and records in order to further assess risk.

Single Audit

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-federal entities that expend $500,000 or more per year in federal
awards have a Single Audit performed annually. The State of Colorado
Statewide Single Audit includes all departments, institutions, and agencies of
state government. We determined that the most recent Statewide Single
Audit was for FY 2012, which ended June 30, 2012. We reviewed the audit
report and found one finding for the University of Colorado, Denver. The
finding was not related to a Department of Justice (DOJ) grant or the
University of Colorado, Boulder.

Financial Management System

       We reviewed CU’s financial management system, interviewed officials,
and inspected award documents. We determined that CU has documented
policies and procedures related to procurement and financial and accounting
functions.

      CU has used PeopleSoft as its accounting system since 2001. The
PeopleSoft system includes traditional accounting system components, such


                                      4

as Accounts Receivable and Accounts Payable. In addition, CU uses three
separate systems for procurement and purchasing, travel, and for payroll.
The three systems are integrated with PeopleSoft and everything is handled
electronically. CU requires employees receive PeopleSoft training. In
addition, employees are given a PeopleSoft ID and are required to create a
password. PeopleSoft tracks journal entries by name.

      CU has written policies and procedures for purchasing and procurement
that detail different purchase thresholds and the ways in which purchase at
certain thresholds can be made. For example, if the total purchase is $5,000
or less, then the purchase can be made with a procurement card, small dollar
purchase order, payment voucher, an interdepartmental invoice, or an
interdepartmental order. If the total purchase is above $5,000 then a
purchase requisition, standing purchase order requisition, or a payment
voucher can be used. CU also has an appropriateness of expenses policy that
details the roles of the expense requestor and approver.

Drawdowns

      The OJP Financial Guide states that award recipients should request
funds based upon immediate disbursement or reimbursement needs. Award
recipients should time their drawdown requests to ensure that federal cash
on hand is the minimum needed for reimbursement or disbursements that
are to be made immediately or within 10 days.

      As of April 17, 2013, CU drew down a total of $374,370 under the
agreement. CU officials stated that drawdowns were requested on a
reimbursement basis and we compared the drawdowns to the CU accounting
records and found funds were drawn on a reimbursement basis. In addition,
the comparison showed the accounting records adequately supported each
drawdown.

Agreement Expenditures

      According to CU’s records, it expended a total of $374,300 as of
March 31, 2013 on the NIJ cooperative agreement that we audited. These
expenditures were comprised of both direct and indirect costs. Direct costs
included salaries, fringe benefits, travel, equipment, supplies, consulting, and
other direct costs. Indirect costs included overhead and general
administrative costs allocated based on an approved indirect labor rate. The
fringe benefit costs were also based on an approved fringe benefit rate.

      To determine if award funds expended were allowable, reasonable, and
in accordance with applicable laws, regulations, guidelines, and award



                                       5

documentation, we tested a judgmental sample of 50 transactions from a
universe of 236 transactions. We reviewed documentation to determine if
the expenses were approved and authorized, within the scope of the award,
properly classified in the accounting records, properly supported, and
correctly charged to the award. In performing the transaction tests, we
found the following:

   •	 1 of the 50 expenses in our sample was not properly classified.
      Approved supplies were purchased and incorrectly charged to
      equipment. CU officials re-classed to supplies in April 2013 and as a
      result, we take no further exception to the classification of the expense.

   •	 All 50 expenses in our sample were accurately recorded in the 

      accounting records.


   •	 All 50 expenses in our sample had sufficiently detailed and complete
      supporting documentation, which identified the correct amount charged
      to the award, and included original receipts.

   •	 All 50 expenses in our sample, receipt of the equipment, supplies, or
      services was verified by an individual with appropriate knowledge.

      However, we found that 3 expenses in our sample were not approved
by the awarding agency. Two Research Associate positions were not in the
approved budget and their time was charged to the award, resulting in
$16,408 in questioned costs. According to CU officials, the work performed
by the two Research Associates did not change the scope of the agreement.
We recommend OJP remedy the $16,408 in salary expense for the two
unapproved positions charged to the award.

      Eight expenses in our sample were not properly supported. The OJP
Financial Guide states, "Where grant recipients work on multiple grant
programs or cost activities, a reasonable allocation of costs to each activity
must be made based on time and or effort reports. These reports must be
prepared monthly and coincide with one or more pay periods." We found
that the time charged for these 8 payroll expenses was based on a
percentage reported at the end of the semester. There was no
documentation to support the actual time and effort used to determine those
percentages. As a result, we question $13,021 as unsupported salary
expenditures. We recommend OJP remedy the $13,021 in
unsupported salary expenditures.




                                       6

Budget Management and Control

      The OJP Financial Guide states that movement of dollars between
approved budget categories is allowed up to 10 percent of the total budget
amount provided there is no change in project scope. When cumulative
changes exceed 10 percent of the total award amount or change the scope of
the project, prior approval is required of OJP. We compared the total
expenditures by budget category between CU’s financial records and OJP’s
approved budget. Our analysis did not reveal any movement of expenditures
greater than 10 percent of total budgeted expenditures.

Reporting

      According to the OJP Financial Guide, award recipients are required to
submit both quarterly Federal Financial Reports (FFR) and semiannual
Progress Reports. These reports described the status of the funds, compared
actual accomplishments to the objectives of the agreements, and reported
other pertinent information. We reviewed the FFRs and Progress Reports
submitted by CU to determine whether each report was accurate and
submitted in a timely manner.

Financial Reporting

       According to the OJP Financial Guide, the quarterly FFRs are due no
later than 30 days after the end of the quarter, with the final FFR due within
90 days after the end date of the award. We reviewed the timeliness of the
5 FFRs submitted so far, during the award period of the agreement and found
CU had submitted the 5 FFRs timely.

      We also reviewed each FFR to determine whether the report contained
accurate information related to actual expenditures incurred during the
reporting period. Our comparison of expenditures reported in the FFR’s to
expenditures recorded in CU’s accounting system revealed the reports were
accurate.

Semiannual Progress Reports

       According to the OJP Financial Guide, Progress Reports must be
submitted within 30 days after the end of the reporting periods of June 30
and December 31, for the life of the award. As of June 30, 2013, CU was
required to submit 3 Progress Reports. We found that CU submitted 2 of the
3 Progress in a timely manner. CU officials explained the first progress
report, which was submitted 15 days late, was due to a CU staffing change
resulting in no one being able to access GMS to submit the report. Given



                                      7

that the login issue was an isolated incident and the following 2 Progress
Reports were submitted timely, we make no recommendation regarding the
late progress report.

      We also reviewed Progress Reports to see if CU was meeting the
agreement goals and objectives. The solicitation and the award documents
did not contain specific award goals and objectives, rather they were tied to
the research being conducted and were detailed out in an abstract, which
was compiled and submitted by CU as part of their proposal. In addition,
given the scientific nature of the research project, CU officials provided us
with a written narrative presenting the preliminary results of the research
supported by the agreement.

       As a result, to verify the information in the Progress Reports, we
reviewed the three Progress Reports submitted as of June 30, 2013, and
compared that information to the goals and objectives in the abstract and the
information contained in the preliminary research results narrative. We did
not find anything that led us to believe the Progress Reports were not
reporting actual accomplishment, in-line with the goals and objectives of the
award.

Award Requirements

      We reviewed CU’s compliance with additional award requirements, such
as the agreements’ special conditions and found that the agreement
contained typical standard language requirements for adherence to laws,
regulations and other guidelines. We found that CU complied with the
additional award requirements we reviewed. Specifically, CU did not pay a
consulting rate that exceeds $450 a day. Also, CU did not use federal funds
to pay cash compensation to CU employee’s working on the agreement at a
rate that exceeds 110 percent of the maximum annual salary to a member of
the federal government's Senior Executive Service (SES).

Program Performance and Accomplishments

      The agreement is a scientific research award from OJP to support the
characterization of bacterial and fungal communities associated with corpse
decomposition using next generation sequencing. It is a discretionary
research award funded under the Basic Scientific Research to Support
Forensic Sciences FY 2011 Solicitation.

      The solicitation stated that the DOJ, NIJ was seeking applications for
funding basic scientific research that underlies the multidisciplinary field of
forensic science. The program furthers the DOJ's mission by sponsoring



                                        8

research to provide objective, independent, evidence-based knowledge and
tools to meet the challenges of crime and criminal justice. With the
solicitation, NIJ was seeking proposals for funding basic scientific research in
the physical, life, and cognitive sciences that is designed to increase the
knowledge underlying forensic science disciplines intended for use in the
criminal justice system.

Program Objectives

       As mentioned previously, under semiannual Progress Reports, the
solicitation and the award documents did not contain specific award goals and
objectives, rather they are tied to the research being conducted and were
detailed out in an abstract, which was compiled and submitted by CU as part
of its proposal. According to the abstract, the purpose of the research is to
determine whether the succession of bacterial and fungal communities
associated with corpses and their gravesoil are sufficiently predictable to be
useful for forensic science and criminal justice. There are 3 goals:

        Goal 1: Determine whether bacterial and fungal decomposer
                communities change in a predictable manner as corpse
                decomposition proceeds.

        Goal 2: Determine whether decomposer communities change the
                endogenous soil community in detectable ways.

        Goal 3: Determine whether decomposer communities are universal or
                source-specific by characterizing variations in these
                communities across soil types and mammalian corpse
                species. 1

      To achieve the research goals outlined, CU proposed three phases of
experiments: a succession experiment, a cross-soil experiment, and a cross-
taxa survey of gravesoil. 2 Specifically,

Phase 1 - Lab-based assessment of bacterial and fungal communities
associated with the decomposition of a model organism, a mouse.

   •	   Objective 1 of Phase 1 - Determine whether the changes in decomposer
        communities over time are predictable.

        1
      Mammalian is an animal of a large class of warm-blooded vertebrates having
mammary glands.
        2
          Taxa is the plural of taxon, which is the name applied to the study of the general
principles of scientific classification.



                                              9

  •	   Objective 2 of Phase 1 - Identify those bacterial and fungal taxa
       derived from the corpse itself by measuring community change in the
       presence of sterile soil.

  •	   Objective 3 of Phase 1 - Determine whether taxa associated with
       corpse decomposition communities are detectable in the gravesoils.

Phase 2 - Lab-based assessment of bacterial and fungal communities
associated with the decomposition of mice on three contrasting soil types.

  •	   Objective 1 of Phase 2 - Determine whether decomposer communities
       are similar given different source soil communities and if they exhibit
       similar changes over time.

  •	   Objective 2 of Phase 2 - Determine whether signatures of decomposer
       communities persist in soil after a corpse is removed.

Phase 3 - A survey of gravesoils associated with pig cadavers, and human
cadavers.

  •	   Objective 1 of Phase 3 Determine which features of studies involving
       model organisms can be used to study microbial decomposer
       community patterns associated with humans.

Analysis of Program Performance

       Given the scientific nature of the award, the only true way to verify
CU’s claims of program success would be to recreate the experiments. As a
result, rather than reviewing a sample of program accomplishments,
we reviewed the progress reports as well as the written narrative presenting
the preliminary results of the research supported by the agreement. We did
not find anything that led us to believe CU was not meeting the goals and
objectives of the award.

      Specifically, for Phase 1, the experiment was successfully completed,
the results prepared, and the manuscript is in the final stages. For Phase 2,
the experiment was successfully completed and the data processed, the
preliminary analysis of the data follows a similar pattern as what was
detected in Phase 1. As for Phase 3, gravesoils associated with pig cadavers
have been collected and preliminary results analyzed. Results from the
outdoor experiments follow a similar pattern to what was discovered in
laboratory experiments in Phase 1 and 2.




                                       10

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under Cooperative Agreement No. 2011-DN-BX-K533 were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, terms and conditions of the award, and to determine program
performance and accomplishments. We reviewed the internal control
environment, drawdowns, agreement expenditures, budget management and
control, financial and progress reporting, program performance and
accomplishments, and award requirements. We found 2 positions charged to
the award that were not in the approved budget and 8 transactions that were
not properly supported, resulting in $29,429 in questioned costs. Finally, we
found one Progress Report was submitted 15 days late. A detail listing of the
questioned costs can be found in the Schedule of Dollar-Related Findings in
Appendix II of this report.

     Based on all of the above findings, we question a total of $29,429 and
make 2 recommendations.

Recommendations

  We recommend that OJP:

  1. Remedy the $16,408 in salary expense for two unapproved positions
     charged to the award.

  2. Remedy the $13,021 in unsupported salary expenditures.




                                     11

                                                               APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of this audit was to determine whether reimbursements
claimed for costs under Cooperative Agreement No. 2011-DN-BX-K533 were
allowable, reasonable, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the cooperative agreement. The
objective of our audit was to review performance in the following areas:
(1) internal control environment, (2) drawdowns, (3) award expenditures,
(4) budget management and control, (5) financial status and progress
reports, (6) program performance and accomplishments, (7) property
management, and (8) special cooperative agreement requirements. We
determined that post end-date activities, matching costs, program income,
and monitoring of subgrantees and contractors were not applicable to this
performance audit.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

      We audited $894,629 in funding awarded to CU under Cooperative
Agreement, No. 2011-DN-BX-K533. Our audit covered, but was not limited
to, the program period, including $374,370 in associated expenditures
beginning in January 2012 through March 31, 2012.

      We tested CU’s compliance with what we consider to be the most
important conditions of the agreement. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide,
the award documents, Code of Federal Regulations, and Office of
Management and Budget (OMB) Circulars. Specifically we tested:

   •	 Internal Control Environment - to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard cooperative agreement funds and ensure
      compliance with the terms and conditions of the award.

   •	 Drawdowns - to determine whether drawdowns were adequately
      supported and if CU was expending drawdowns timely.




                                      12

  •	 Expenditures - to determine the accuracy and allowability of costs
     charged to the cooperative agreement, including accountable property,
     payroll expenditures, fringe benefit expenditures, and indirect costs.

  •	 Budget Management and Control - to determine whether there were
     deviations between the amounts budgeted and the actual costs for
     each category.

  •	 Federal Financial Reports (FFRs) and Progress Reports - to
     determine whether the required FFRs and Progress Reports were
     submitted in a timely manner and accurately reflect award activity.

  •	 Program Performance and Accomplishments - to determine

     whether CU met the award objectives.


  •	 Award Requirements - to determine whether CU complied with

     award guidelines and special conditions.


      In conducting our audit, we reviewed the internal controls of CU’s
financial management system specific to the management of DOJ agreement
funds during the agreement period under review. However, we did not test
the reliability of the financial management system as a whole. We also
performed limited tests of source documents to assess the accuracy and
completeness of reimbursement requests.

      In our limited testing, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the agreement reviewed, such
as dollar amounts or expenditure category. We selected a judgmentally
sample of 50 transactions from a universe of 236; this non-statistical sample
design does not allow projection of the test results to the universes from
which the samples were selected. We also tested for the timeliness and
accuracy of submitted financial and progress reports.




                                     13

                                                                      APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                                                  Amount               Page

Questioned Costs 3

   Unallowable Salary Expenditures                           $ 16,408                6

   Unsupported Salary Expenditures                           $ 13,021                6

   Total (Gross):                                            $ 29,429
   Less Duplication 4                                        ($ 3,288)


NET QUESTIONED COSTS                                          $26,141



TOTAL NET DOLLAR RELATED FINDINGS                            $26,141





      3
          Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
      4
         Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.



                                           14

                                                                                          APPENDIX III


     THE REGENTS OF THE UNIVERSITY OF COLORADO,
       BOULDER’s RESPONSE TO THE DRAFT REPORT



                                               Accountin& .. nd Ilu.'"".. S" I''''''' '        " 3 03.49l . ~1G6
 University of Colorado                        3100 Ma,;"" S,'... ,                            I, 303· .!Il · 5SS3
 Boulder                                       579 UC8                                         .CCO u". ,..... cok;>'adO .• d"
                                               a.o... .....,. co lIOlO9·OS79




 N ovember 19, 2013


 David M . Sheeren
 Regional Audit Manger
 U . S . Department of Justice
 Office of the In spector General
 Den ver Reg iona l Audit Office
 1120 Lincoln, S u ite 1 500
 Denver. CO 80203

 Dear M r . Sheeren.

 Below is the official response t o the audit re port on the Audi t of t he Office of Justice Programs ,
 Basic Scien tific R esearch to Support Forensic Science for Criminal Justice. Cooperative
 Agreement awarded t o the Regents of t h e U niversity of Colorad o, Bou ld er.

 R e sponse to Fin ding 1 o f DQJ D r a ft Aud it R e p g rt

The following is the U niversity of Colorado at Boulder's (CU-Bou ld e r) response to the $16,408
in question ed cost re lated to sa lary expen se f or two positions c h arged t o the awa rd .

According to th e approved budget CU - B o ulder is budgeted for 2 .67 Full Time Equiva lents
(FTE) for research associates and one graduate s t udent at .4 FTE or 50"/ p e r month .
                                                                         "

T h e project h as been u n der the allotted personne l allocation o f 2 .67 FTE'sJmon th for research
associates w it h the exceptions of December 2012 a nd January 2013 w h e n CU-Boulder had
3 .0 FTE's on the project due to th e need to meet interim goals.

The aver age month ly p e rs o n nel budget Is $14 .0 1 2 per month for year one of the grant
($168,144/ 1 2) and $14,371   per month fo r year two of the grant ($172.457112) . No month
during t he project has exceeded t h e infe rred allowed monthly personnel budget, including th e
months of Decembe r 2012 and January 20 1 3.

The research associated with the grant is b ei ng conducted at an academic institution. Given
the multiple demands on the principal investigato r s conducting the study . f lexibility in e ffo rt
expended is necessary t o obtain optima l results . As noted above, the allowed monthly
personnel budget has not been exceeded at any point during the award .

As total pers onnel cos ts have not exceeded budget amounts , C U - Boulder does not agree with
the recommendation to rem e dy the $16 ,408 in salary expenses .




                                               15

 Response to Finding 2 of pOJ praft Aydit Report

The following is CU-Bou ld er's response to recommendation #2 for $13 ,021              in salary
expenditures .

According to OJP Financial Guide, "Where gra nt recipients work on multiple grant programs ..
a reasonable allocation of costs to each activity must be made based on time andl or effort
reports. These reports must be prepared monthly ."

The department does a reasonable allocation of work monthly but time and effort are certified
every semester as prescribed by Office of Management and Budget (OM B) C ircular A -21 .
OMB Circ ular A - 21 states : "salary and wage costs are allowable if:

       a. Th e amount of compensation is supported and documented
       b . The compensation conforms to the estab lished policies of the institution
       c . The institutional policies are consistently applied"

The University of Colorado's policy on effort reporting is consistent with federal guidelines .
The department is following institutiona l policy to ensure month ly allocations are done property
and the effort reports are certified timely and in accordance with OMB Circular A -2 1. CU­
Boulder also has adequate internal control in place to ensure all salary and wage costs are
properly supported . The aud it of this award reviewed procurement , receiving , payment, and
payroll internal control procedures . No weaknesses were noted in any o f these areas .

CU-Boulder's practices , taken in their totality, are in conformity with the Financial Guide.
Therefore , these eight payroll expenses should not be disallowed . CU - Boulder therefore does
not agree with the recommendation to remedy the $13,021 for salary expe nditures as those
expenditures are adequately supported and are in substantial compliance with the Financial
Guide and with OMB C ircular A-21 .

Please contact me at (30 3)735--6435 jf you have questions.


Sincerely,


--/~c
James C . Le i
Assistant Director
Accounting and Bu siness Support
University of C olorado Boulder




                                           16

                                                                APPENDIX IV


           OFFICE OF JUSTICE PROGRAMS RESPONSE
                   TO THE DRAFT REPORT




                                        U.S. Department of Justice

                                        Office of Justice Programs

                                       Office of Audit, Assessment, and Management



                                       Washington, D.C. 20531




November 27, 2013


MEMORANDUM TO:         David M. Sheeren
                       Regional Audit Manager
                       Denver Regional Audit Office
                          Office of the Inspector General

                             /s/
FROM:                  Maureen A. Henneberg
                       Director

SUBJECT:               Response to the Draft Audit Report, Audit of the
                       Office of Justice Programs, Basic Scientific Research
                       to Support Forensic Science for Criminal Justice,
                       Cooperative Agreement Awarded to the Regents of
                       the University of Colorado, Boulder

This memorandum is in reference to your correspondence, dated October 22,
2013, transmitting the above-referenced draft audit report for the Regents of
the University of Colorado, Boulder (CU). We consider the subject report
resolved and request written acceptance of this action from your office.




                                     17

The draft report contains two recommendations and $26,141 5 in net
questioned costs. The following is the Office of Justice Programs’ (OJP)
analysis of the draft audit report recommendations. For ease of review, the
recommendations are restated in bold and are followed by our response.

1.	    We recommend that OJP remedy the $16,408 in salary expenses
       for two unapproved positions charged to the award.

       OJP agrees with the recommendation. We will coordinate with CU to
       remedy the $16,408 in questioned salary expenses.



2.	    We recommend that OJP remedy the $13,021 in unsupported
       salary expenditures.

       OJP agrees with the recommendation. We will coordinate with CU to
       remedy the $13,021 in unsupported salary expenditures.

We appreciate the opportunity to review and comment on the draft audit
report. If you have any questions or require additional information, please
contact Jeffery A. Haley, Deputy Director, Audit and Review Division, on
(202) 616-2936.

cc:	   Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Gregory Ridgeway
       Acting Director
       National Institute of Justice

       Portia Graham

       Acting Office Director, Office of Operations

       National Institute of Justice


       Charlene Hunter

       Program Analyst

       National Institute of Justice


       Danielle McLeod-Henning

       5
         Some questioned costs were questioned for more than one reason. Net questioned
costs exclude the duplicate amount.



                                          18

Physical Scientist
National Institute of Justice

Richard P. Theis
Assistant Director, Audit Liaison Group
Internal Review and Evaluation Office
Justice Management Division

OJP Executive Secretariat
Control Number 2013-1775




                                19

                                                                APPENDIX V


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Regents of the
University of Colorado, Boulder (CU) and the Office of Justice Programs
(OJP). CU’s response is incorporated in Appendix III of this final report, and
OJP’s response is included as Appendix IV. The following provides the OIG
analysis of the responses and summary of actions necessary to close the
report.

Analysis of CU’s Response

      In response to our audit report, CU disagreed with both of our
recommendations. Specifically, in its response to Recommendation No. 1,
remedy the $16,408 in salary expenses for two unapproved positions charged
to the award, CU officials stated that given the multiple demands on the
principle investigators conducting the study, flexibility in effort expended is
necessary to obtain optimal results. CU officials also noted in their response
that the allowed monthly personnel budget has not been exceeded at any
point during the award. Although we recognize the unique challenges of
conducting grant related research at an academic institution, the OJP
Financial Guide requires that a grantee initiate a Grant Adjustment Notice
(GAN) for changes in scope, duration, activities, or other significant areas.
These changes include, but are not limited to, experiencing or making
changes to the organization of staff with primary responsibility for
implementation of the award. In our judgment, CU should have obtained a
GAN for the two positions not approved in the grant budget.

       In response to recommendation number 2, remedy the $13,021 in
unsupported salary expenditures, CU officials stated that they do a
reasonable allocation of work monthly but time and effort are certified every
semester as prescribed by OMB Circular A-21, which states salary and wage
costs are allowable if: (a) the amount of compensation is supported and
documented; (b) the compensation conforms to the established policies of
the institution; and (c) the institutional policies are consistently applied. In
their response CU officials go on to explain that their effort on reporting is
consistent with federal guidelines and that they are following institutional
policy to ensure monthly allocations are done properly and the effort reports
are certified timely and in accordance with OMB Circular A-21.




                                       20

      However, the cooperative agreement award documents list special
conditions and special condition number one says the recipient agrees to
comply with the financial and administrative requirements set forth in the
current edition of the OJP Financial Guide. As stated in our draft report, the
OJP Financial Guide states, “where grant recipients work on multiple grant
programs or cost activities, a reasonable allocation of costs to each activity
must be made based on time and or effort reports. These reports must be
prepared monthly and coincide with one or more pay periods.” For the eight
payroll expenses, the time charged to the agreement was based on a
percentage reported at the end of the semester; however, there was no
documentation supporting the actual time and effort used to determine those
percentages. As a result, in our judgment, the eight payroll transactions
were not properly supported under the requirements of the OJP Financial
Guide.

Summary of Actions Necessary to Close the Report

  1. Resolved. OJP agreed with our recommendation to remedy the
     $16,408 in salary expenses for two unapproved positions charged to
     the award. OJP stated in its response that it will coordinate with CU to
     remedy the $16,408 in questioned salary expenses.

     This recommendation can be closed when we receive documentation
     that OJP has remedied the $16,408 in questioned salary expenses.

  2. Resolved. OJP agreed with our recommendation to remedy the
     $13,021 in unsupported salary expenditures. OJP stated in its
     response that it will coordinate with CU to remedy the $13,021 in
     unsupported salary expenditures.

     This recommendation can be closed when we receive documentation
     that OJP has remedied the $13,021 in unsupported salary
     expenditures.




                                      21

